<html>
<title> - HEARING TO EXAMINE S.2663, THE AGRICULTURE CREATES REAL EMPLOYMENT (ACRE) ACT</title>
<body><pre>[Senate Hearing 115-267]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-267
 
  HEARING TO EXAMINE S.2663, THE AGRICULTURE CREATES REAL EMPLOYMENT 
                               (ACRE) ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-329 PDF             WASHINGTON : 2018      
 
 
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 14, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Miyamoto, Doug, Director, Wyoming Department of Agriculture......     5
    Prepared statement...........................................     8
    Response to an additional question from Senator Carper.......    11
    Responses to additional questions from Senator Merkley.......    12
Yates, Ryan, Director of Congressional Relations, American Farm 
  Bureau Federation..............................................    13
    Prepared statement...........................................    15
    Responses to additional questions from Senator Merkley.......    24
Lyons, Jim, Senior Fellow, Center for American Progress, 
  Lecturer, Yale School of Forestry and Environmental Studies....    28
    Prepared statement...........................................    31

                          ADDITIONAL MATERIAL

Congressional Research Service; Fair Agricultural Reporting 
  Method Act/FARM (S.2421).......................................   145
Congressional Research Service; Supplemental Analysis: Fair 
  Agricultural Reporting Method Act/FARM (S.2421)................   156
Statement of National Wildlife Federation........................   160


  HEARING TO EXAMINE S.2663, THE AGRICULTURE CREATES REAL EMPLOYMENT 
                               (ACRE) ACT

                              ----------                              


                       WEDNESDAY, MARCH 14, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Cardin, Booker, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will hold a legislative hearing on the Agriculture 
Creates Real Employment, or the ACRE, Act. This is bipartisan 
draft legislation to help farmers, ranchers, and the 
communities they depend on get their relief from burdensome 
Federal regulations and policies.
    The Senate Environment and Public Works Committee has a 
unique role to play in the policies that impact agriculture. 
Just last month this Committee held a hearing on this important 
issue and we heard testimony from real farmers and ranchers 
representing a diverse group of States.
    The message from our witnesses' testimony was clear: the 
negative impact of many Federal environmental regulations and 
policies on American farming and ranching communities is real 
and it needs to be addressed. The testimony we heard was not 
about the value of environmental regulations, but about how 
some Federal regulations can be inflexible, antiquated, 
duplicative, and ultimately harmful to American agriculture, a 
critical part of our Nation's economy.
    The draft bill we are discussing today is designed to 
provide relief for hardworking people that put a shovel in the 
ground every day, working to feed this Country. I believe the 
ACRE Act provides that relief.
    My bill addresses many issues that are critical to ranchers 
and farmers. These include protecting farmers' and ranchers' 
privacy; eliminating duplicative environmental permitting for 
the use of pesticides; addressing unneeded and 
counterproductive reporting requirements under the 
Comprehensive Environmental Response, Compensation, and 
Liability Act, the CERCLA Act; and doing away with the unfair 
punishment of farmers who are wrongly accused of baiting 
migratory game birds simply because they are following normal 
farming practices.
    The ACRE Act also supports an efficient permitting process 
at the U.S. Fish and Wildlife Service for predator control. The 
change will allow ranchers and farmers to better protect their 
livestock from predator attacks.
    Most of these provisions were introduced as individual 
bills and have bipartisan support. One such bill introduced by 
Senator Fischer, the Fair Agriculture Reporting Method Act, or 
the FARM Act, has 12 Democratic cosponsors, including our 
Ranking Member. This bill addresses new animal waste emission 
reporting requirements.
    Over the past several months, farmers and ranchers 
struggled to comply with ambiguous agency directives following 
an April 2017 decision in the D.C. Circuit Court. The ruling 
meant up to 100,000 farmers and ranchers, who have never been 
required to report under these laws, would suddenly be required 
to comply. Even though they wanted to comply with the ruling, 
the process and implications of compliance were unclear. 
Because both CERCLA and EPCRA were not written with the intent 
of regulating these farm and ranches, the requirement to report 
emissions from animal waste came without context and largely 
without agency guidance.
    Another bill is Senator Crapo's S. 340, the Sensible 
Environmental Protection Act, which was introduced along with 
Democrat Senators Donnelly, Heitkamp, and McCaskill. This bill 
amends the Federal Insecticide, Fungicide, and Rodenticide Act, 
or FIFRA, and the Clean Water Act to eliminate a duplicative 
permitting requirement.
    The bill prohibits the Environmental Protection Agency from 
requiring a permit under the National Pollutant Discharge 
Elimination System for a pesticide application from a point 
source as long as the application is approved under FIFRA. In 
addition, the ACRE Act also has legislation sponsored by 
Independent Senator Angus King, S. 1206, which will ensure fair 
treatment and licensing requirements for the export of certain 
echinoderms.
    Let us remember that farmers and ranchers are the original 
stewards; they understand that landscapes and watershed need to 
be healthy to support native plants, wildlife, crops, and 
livestock. They are living proof that interacting with nature 
can be done in an environmentally sound way, often leaving the 
resources in better condition than they were found.
    Washington policies do not always translate well in rural 
America. As I mentioned at our last agriculture hearing, in 
February, when I was home in Wyoming, I often hear about just 
how out of touch the environmental regulations have become. It 
has gotten to the point where ranchers and farmers are burdened 
by the thought that they will be fined thousands of dollars for 
simply putting a shovel in the ground.
    I believe we should prioritize updating and revising 
policies that, while well-intentioned, were never designed to 
micromanage agriculture production. This is what the ACRE Act 
does.
    Now, before we move to our witnesses today, I would like to 
turn to Ranking Member Carper for his remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. I have had a chance 
to personally welcome, as you have, each of our witnesses.
    We are happy that you have joined us today. Welcome, with 
your presence and your testimony, your willingness to respond 
to some questions. I am going to have to leave here today at 
11, so I will not be here for the entire hearing, but I very 
much want to make the next hour count, so thank you all.
    Mr. Chairman, thanks a lot for bringing us in to cover this 
subject that is on our minds. It is something we have talked 
about a fair amount lately in another hearing actually right 
here in this room.
    I think we all can agree on the title of the legislation 
that we are considering here today. There is no doubt that 
agriculture creates real employment; it does in our State, in 
Delaware, and I know it does in States that are represented in 
this Committee and the Senate.
    As I have said in some of our previous hearings here, 
agriculture, believe it or not, is a critical economic driver 
in Delaware. Over 40 percent of our land is dedicated to 
farming and our State's agricultural sector employs some 30,000 
Delawareans, while contributing nearly $8 billion a year to the 
State's economy. That is a lot of money for a little State.
    As my colleagues have heard me say a time or two before, I 
believe that our Country's environmental laws and regulations 
have, by and large, served our entire Nation, including our 
farmers, well. It is possible to have clean air and clean 
water. It is possible to protect our land and conserve species 
and still have good jobs, plenty of jobs. It takes some work to 
find the right solutions to achieve that balance, but the hard 
work almost always pays off.
    One such example is the FARM Act, which is included as one 
of the sections in the ACRE Act. Its prime sponsor is here with 
us today, the Senator from Nebraska.
    But, Mr. Chairman, as you know, we worked hard to strike a 
careful compromise on that legislation. In my opinion, the FARM 
Act is an example of where we can do a good job balancing the 
needs of our farmers, while preserving access to information 
that can help protect public health.
    Unfortunately, I do not believe that the ACRE Act in its 
entirety represents the same thoughtful approach. The 
legislation recognizes and attempts to address concerns raised 
by some of our farmers. As drafted, though, I don't believe 
that it adequately balances those interests with the interests 
of other natural resource-dependent industries.
    For example, Delaware has a booming wildlife tourism 
industry. I know other States represented here do too. But 
visitors come from all over the world to observe migratory 
birds in Delaware, including the federally listed threatened 
Red Knot. A 2016 U.S. Fish and Wildlife Service study found 
that more than 45 million people, 45 million people enjoyed 
bird watching that year, enjoying other wildlife watchers and 
contributing more than $75 billion to the U.S. economy. The 
Endangered Species Act and Migratory Bird Treaty Act help 
ensure the long-term viability of that industry, too. In its 
current form, I fear that the ACRE Act could have harmful 
implications for these important laws.
    Having said that, there may be ways to address farmers' 
concerns without unintended consequences. For example, our 
Federal agencies can work with stakeholders to explore 
administrative options that may resolve endangered species and 
migratory bird concerns. Or we in this Committee may be able to 
reach narrower, truly bipartisan compromises in some of the 
items contained in the ACRE Act. I hope so.
    Further, there are stewardship success stories that this 
Committee and the Congress should examine that are examples of 
ways to improve collaboration and conservation outcomes in 
agriculture. For example, just last year, in the town of 
Blades, just south of Seaford, the world's first nylon plant 
was built some almost 80 years ago.
    But in the town of Blades, located in the southwestern part 
of our State, Perdue Farms worked with several communities to 
expand its multimillion dollar nutrient recycling investment on 
Delmarva. This investment and new composting operation 
increased the company's capacity to handle surplus poultry 
litter and allowed other agricultural byproducts to be 
recycled.
    This actually started in my last term as Governor, Mr. 
Chairman. We took some State money, added to that a lot of 
money from Perdue, and created this industry in the 
southwestern part of our State, so we are not just going to 
spread all those nutrients on farm fields, but actually turn 
some of them into--I think it was the Scott lawn care people, 
the Scott people, they sell the stuff all over the Country as 
an organic fertilizer. But we have taken some important other 
steps in Delaware to help farmers become even better stewards 
of the land.
    I have mentioned before, and I will do it again here 
briefly today, again, when I served as Governor, the last year 
or two, we addressed high levels of agricultural runoff by 
forming the Nutrient Management Commission, farmer-led. The 
Commission brought together farmers and members of the 
environmental community to devise commonsense solutions, and 
that is basically three things: have farmers check the nutrient 
levels in their field, the ability of fields to absorb 
nutrients, phosphorous and nitrogen in particular; each of the 
farmers are going to be using the nutrients to develop a plan 
that is appropriate for their farms at non-polluting levels; 
and then provide the training necessary to implement the plans.
    Initiatives like those led by the Nutrient Management 
Commission and smart investments like those by Perdue in the 
State of Delaware are just two examples that this Committee 
can, and I think should, look at as we strive to protect our 
air, our water, while also creating economic opportunity in the 
agricultural industry.
    So, we look forward to hearing from all of our colleagues, 
our witnesses today to advance current and future legislation 
that supports our farmers and protects our environment. I look 
forward to hearing from all of you. Thank you again so much for 
joining us today. Welcome.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    We are now going to turn to the witnesses, but I would like 
to first introduce Mr. Doug Miyamoto, who is joining us today 
and the first one to testify. He has served as the Director of 
the Wyoming Department of Agriculture since 2015. In his role 
as Director, Doug deals with issues that we will discuss here 
today on a daily basis: environmental reporting for Wyoming 
agriculture producers, predator management, liaising with 
Federal agencies to coordinate environmental resource issues, 
and many other issues that arise when getting our agriculture 
products to the end consumer.
    Doug previously served as the Executive Director of the 
Wyoming Livestock Board, the Deputy Director of the Wyoming 
Department of Agriculture, and in several other positions at 
the Natural Resource Conservation Service, Wyoming State 
Engineer's Office, and the University of Wyoming.
    Doug is uniquely qualified to speak to today's issues, both 
from his professional experience and because he received the 
highest quality education from the University of Wyoming.
    Senator Carper. Shameless.
    [Laughter.]
    Senator Carper. Shameless pandering. What is their mascot? 
What is their mascot?
    Senator Barrasso. My wife has three degrees from the 
University of Wyoming.
    [Laughter.]
    Senator Barrasso. I am going to get her down here and 
debate you, Mr. Ranking Member, and you don't stand a chance.
    Senator Carper. I would lose.
    Senator Barrasso. He is uniquely qualified because of his 
incredible education, background, and degree. He studied range 
management for his undergraduate degree and later earned a 
Masters in rangeland ecology. He serves Wyoming well by 
bringing his holistic approach to his leadership at the Wyoming 
Department of Agriculture, and I am pleased that he would join 
us here today.
    In addition to Doug, we also have Mr. Ryan Yates, who is 
the Director of congressional Relations for the American Farm 
Bureau Federation, and Mr. Jim Lyons, who is a Senior Fellow at 
the Center for American Progress.
    So, I would like to welcome all three of you today. We 
would like to remind you that your full written testimony will 
be made part of the official hearing record, and please keep 
your statements to 5 minutes so that we may have time for 
questions.
    Doug, please proceed.

  STATEMENT OF DOUG MIYAMOTO, DIRECTOR, WYOMING DEPARTMENT OF 
                          AGRICULTURE

    Mr. Miyamoto. Chairman Barrasso, thank you for that kind 
introduction. Ranking Member Carper, members of the Committee, 
thank you so much for the privilege of speaking to you today 
about the ACRE Act.
    Again, Doug Miyamoto. I am the Director of the Wyoming 
Department of Agriculture, and I also currently serve as the 
Chairman of the Natural Resources and Environment Committee of 
the National Association of State Departments of Agriculture.
    I am here today to talk about my support for the ACRE Act, 
and I will highlight a few of the reasons why in my testimony 
today. I am not an expert on all of the issues that are 
addressed by the ACRE Act, but there is a common theme of 
ensuring that the ag industry is subject to the correct and 
intended regulations for normal agricultural activities. I will 
emphasize individual sections of the ACRE Act on which the 
Wyoming Department of Agriculture and NASDA have concentrated 
on in recent years, as those are the ones with which I am most 
familiar.
    Importantly, and I am sure you are all aware, Section 3 of 
the ACRE Act provides the exemptions from notice requirements 
and penalties revolving around CERCLA. I don't want to go into 
too much detail on this because I am sure you all have heard 
about the issues surrounding CERCLA, so I would just like to 
point out some specifics regarding the impact of CERCLA and its 
affiliated reporting requirements to Wyoming.
    Exempting farmers and ranchers not engaged in confined 
animal feeding operations is, in my opinion, simply the right 
thing to do. CERCLA was never intended to regulate the 
livestock industry, but, rather, to ensure cleanup of the 
Nation's most contaminated Superfund sites to protect the 
public.
    I have been asked many questions from Wyoming's producers 
about how they are to estimate emissions and how they are 
supposed to report those emissions in a non-confined range 
cattle setting. Unconfined range cattle represents the majority 
of the operations in the State of Wyoming, and by one suggested 
measure this continuing estimating reporting requirement would 
apply to all livestock operations involving more than 206 head 
of cattle.
    Obviously, this standard would incorporate the majority of 
the commercial livestock operations in Wyoming, and there is 
simply no way for the majority of Wyoming's cattle producers to 
know if their cattle are emitting more than 100 pounds of 
ammonia or hydrogen sulfide in any given day. Frankly, I don't 
know what to tell producers when they call me for technical 
assistance on how to comply with CERCLA at this point.
    The exemptions proposed in this Act will provide producers 
some protection from liability, and it also will address 
Federal agencies of jurisdiction, the EPA and the Coast Guard, 
and eliminate them wasting their limited resources on 
administering a program that does nothing to protect public 
health and also does not ensure that the Nation's priority 
Superfund sites are addressed appropriately. Including 
livestock operations in the reporting and penalty provisions of 
CERCLA is counterproductive both for producers and for the 
agencies, and illustrates why this language has 29 bipartisan 
cosponsors.
    Specific to Wyoming, another section I really wanted to 
highlight was Section 11 of the ACRE Act, and this simply 
reaffirms the authorities of the Fish and Wildlife Service to 
issue appropriate permits to address livestock depredation. As 
an example, I want to discuss eagle management and its 
challenges in Wyoming.
    Wyoming is home to the largest population of Golden and 
Bald Eagles in the lower 48 States. Wyoming is also known as a 
destination for wildlife viewing, and we view eagles as a 
valuable component of a balanced ecosystem. We do not want to 
decimate eagle populations.
    But in the instance of newborn livestock losses to eagle 
depredation, typically, additional newborn loss has already 
occurred before Fish and Wildlife Service can even pursue the 
first step of an eagle take permit, which is eagle harassment. 
It is such a slow process that is a rarity for the next step, 
which would be live capture and removal, to ever even be 
pursued. Livestock producers have more frequently had to resort 
to much more surveillance of their young stock; they have had 
to move herds completely to entirely new locations; and they 
have had to build and purchase lambing sheds, calving sheds to 
conduct operations indoors to protect from these depredations.
    We have seen a lot of sheep business leave entirely due to 
eagle depredation. In 2017 alone, Wyoming experienced 1,000 
sheep and lamb losses to eagle depredation, according to the 
National Agricultural Statistic Service. This doesn't even 
mention the impact of ravens on sage grouse, which can be 
addressed also by this provision within the Act.
    In conclusion, I would say, as a representative of 
government, I would assert to you that we have an obligation to 
ensure that our regulations are clear, consistent, and 
effective. I have made it a goal of the Wyoming Department of 
Agriculture to support commerce in the ag arena, even given the 
regulatory nature of our Department. One of my highest 
priorities is to lead the Department of Ag in a manner that 
emphasizes education before regulation and provides regulatory 
certainty for our producers.
    Again, I sincerely appreciate specifically the work of my 
Senator and Chairman Barrasso, Ranking Member Carper, and 
Senators Fischer and Donnelly on your specific work on CERCLA. 
That is very much appreciated. And I also appreciate the 
opportunity to present to the Committee today, and please know 
I am available for anything that you may need as a Committee. 
Thank you.
    [The prepared statement of Mr. Miyamoto follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Barrasso. Well, thank you very much for your very 
thoughtful and thorough testimony. Appreciate it.
    Mr. Yates.

 STATEMENT OF RYAN YATES, DIRECTOR OF CONGRESSIONAL RELATIONS, 
                AMERICAN FARM BUREAU FEDERATION

    Mr. Yates. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for calling this important 
hearing on the ACRE Act and inviting me to testify on behalf of 
the American Farm Bureau Federation. Farm Bureau commends you 
for your leadership in advancing legislation which addresses a 
range of environmental policy issues which impose real costs 
and substantive burdens to our members. I will highlight our 
comments and support section by section.
    Farmers and ranchers support the solution provided in 
Section 3 of the ACRE Act, which will protect their businesses 
from financial strain and burden of unnecessary reporting 
requirements. CERCLA was enacted to provide for cleanup of the 
worst industrial chemical and toxic waste dumps and spills.
    CERCLA has two primary purposes: to give the Federal 
Government tools necessary for prompt response to problems 
resulting from hazardous waste disposal, and to hold polluters 
financially responsible for cleanup. Unfortunately, in April 
2017, the D.C. Circuit Court of Appeals issued a decision 
vacating EPA's 2008 exemption for agricultural operations. I 
would like to point out the public safety concerns caused by 
these reporting requirements.
    Up to nearly 200,000 farms may have to report to the 
National Response Center, overwhelming that system and drawing 
resources from actual emergencies. Additionally, there are 
national security implications. By requiring reporting, we will 
be creating a roadmap for nearly our entire animal agriculture 
production system. Obviously, this creates an opportunity for 
mischief for those wanting to harm our very safe and abundant 
food supply. Last, requiring individual farmers and ranchers to 
disclose personal home addresses along with their farm 
information creates an opportunity for activists to harass 
farmers and ranchers where they live and work.
    Section 5 would protect farmers from Federal penalties 
levied under the Migratory Bird Treaty Act if they are 
following best practices provided by their State Cooperative 
Extension Service. AFBF supports the Hunter and Farmer 
Protection Act, which would allow each State's Cooperative 
Extension Service to clarify the difference between what 
constitutes baiting and normal agricultural practices.
    Section 6 of the ACRE Act is a proposal that has long 
enjoyed bipartisan support, and we strongly support its 
adoption. It simply states that when a pesticide is lawfully 
applied under FIFRA, it is not also regulated under the Clean 
Water Act. It has been the longstanding view of the law until 
it was thrown into question by decisions in the Ninth Circuit. 
We believe it is a sensible approach that reflects the will of 
Congress and prevents overregulation.
    AFBF supports Section 7, the Farmer Identity Protection 
Act, which would prohibit the EPA or an EPA contractor from 
disclosing information collected under Clean Water Act 
requirements from livestock operations. AFBF opposes the 
disclosure of personal and/or business information by an 
organization, business, or government agency about individual 
farmers and ranchers. The release of any information should 
only be allowed under specific written or electronic 
authorization of the individual or the private business entity.
    Section 8 would prohibit the EPA from enforcement of the 
Clean Water Act for agricultural operations through aerial 
surveillance without the written expressed consent of the 
owner-operator of the land. Farm Bureau supports the use of 
unmanned aircraft systems, or UAS, as another tool for farmers 
and ranchers to use in managing their crops and livestock, and 
making important business decisions. While Farm Bureau supports 
this technology and the potential opportunities it offers for 
farmers and ranchers, we are also concerned about the data 
collected from UAS and the privacy and security of the data. It 
is critical that data collected via UAS remain under the 
ownership and control of the farmer and is not available to 
government agencies or others without the farmer's permission.
    Section 9 would provide immediate relief to the aquaculture 
industry by reinstating the force and effect of the U.S. Fish 
and Wildlife Services' statutory depredation order for the 
double-crested cormorant with respect to freshwater aquaculture 
facilities. In response to a legal challenge against the 
Service, the U.S. District Court for the District of Columbia 
remanded the 2014 Aquaculture Depredation Order for the 
cormorant. The cormorant is a large water bird that feeds 
mainly on fish. As you can imagine, commercial fish ponds that 
are stocked at high densities make them highly susceptible to 
bird predation particularly by the cormorant. Predator control 
is vital to the success of American aquaculture.
    Thank you, Mr. Chairman. We look forward to continuing to 
work with the Committee in securing enactment of this 
critically important legislation. I would be happy to answer 
any questions that you or the Committee may have. Thank you.
    [The prepared statement of Mr. Yates follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thank you so very much, Mr. Yates. We 
appreciate your testimony.
    Now, Mr. Lyons.

  STATEMENT OF JIM LYONS, SENIOR FELLOW, CENTER FOR AMERICAN 
 PROGRESS, LECTURER, YALE SCHOOL OF FORESTRY AND ENVIRONMENTAL 
                            STUDIES

    Mr. Lyons. Mr. Chairman, members of the Committee, I am Jim 
Lyons. I am currently a Senior Fellow at the Center for 
American Progress and a lecturer at the Yale School of Forestry 
and Environmental Studies. Previously, I have served as Deputy 
Assistant Secretary for Land and Minerals Management in the 
Department of the Interior under President Obama and as USDA 
Under Secretary for Natural Resources and Environment under 
President Clinton. And from 1985 to 1993 I was a member of the 
House Committee on Agriculture staff, where I had the 
opportunity to help lead the effort to shape both the 
Conservation and Forestry Titles of the 1990 Farm Bill.
    I bring up the 1990 Farm Bill because I believe it was a 
groundbreaking effort that expanded the scope of our 
conservation toolkit. Since then, through successive Farm Bills 
I believe we have demonstrated the important relationship 
between farmers, ranchers, and Federal conservation agencies 
and the power of their partnership.
    Voluntary conservation made possible by the technical and 
financial assistance by Federal conservation agencies and their 
State and private partners have maintained and restored the 
health of millions of acres of farm and ranchlands, and 
conserved fragile soils, wetlands, water quality, and wildlife 
habitat.
    We continue to depend on the Nation's farmers and ranchers 
not only for our food and fiber, but also for the care of our 
lands and natural resources. As Conservationist Aldo Leopold 
described in 1939, ``It is the American farmer who must weave 
the greater part of the rug on which America stands.'' Nearly 
fourscore years later, Leopold's comments remain very valid.
    American farmers and ranchers remain conservation leaders, 
and we have an obligation to the American people to ensure that 
we protect and promote the public-private partnership that has 
helped protect our capacity to produce safe and affordable food 
and fiber, and conserve America's soil, water, air, and 
wildlife resources.
    The ACRE Act is an interesting amalgam of bills. I will do 
my best to address them today, but I implore you to work 
together in a thoughtful, bipartisan approach to build on the 
foundation of prior Farm Bills to improve efforts to weave the 
rug of conservation of which Leopold has spoken.
    Given the limited time, I will comment on just a few 
sections of the bill.
    On Section 3, the exemption from certain notice 
requirements and penalties under CERCLA, I understand that this 
would simply codify an exemption from these requirements that 
had been implemented since 2008. Minimizing the burden on 
farmers for collecting and reporting necessary data makes 
sense, and I strongly support that objective.
    I hunt and have hunted waterfowl on Maryland's eastern 
shore, so I understand the intent of Section 5 to further 
clarify the definition of normal agricultural activities under 
the Migratory Bird Treaty Act. But I would suggest, Mr. 
Chairman, that it might be better to address this definitional 
issue administratively, rather than setting a one-size-fits-all 
standard and statute. This should be done in collaboration with 
the NRCS, the U.S. Fish and Wildlife Service, and relevant 
State Fish and Wildlife agencies.
    With regard to Section 6, the Congress has made several 
attempts in recent years to find common ground in avoiding 
duplication, providing clarity, and reducing the burden 
associated with data collection and reporting under FIFRA and 
the Clean Water Act. Efficiency in data collection reporting is 
important, provided the intent of both FIFRA and the Clean 
Water Act are met.
    In places like Maryland, where I currently reside, this can 
be particularly problematic given the potential for pesticide 
applications to inadvertently impact waterways and the 
Chesapeake Bay. Simply having a pesticide registered under 
FIFRA, in my opinion, does not obviate the need for ensuring 
the Clean Water Act requirements are met where the potential 
for impacting water resources occurs.
    While I understand the purpose of Section 7, the Farmer 
Identity Protection Act, and the concern of livestock 
producers, I think it is important the data related to these 
activities be collected in a manner that permits research and 
analysis to benefit producers, help reduce operator costs, 
improve the efficiency of livestock operations, as well as 
protect public safety and the environment.
    Regarding Section 8, aerial photography and assessments by 
their very nature are intended to cover large landscapes, 
making it difficult, if not nearly impossible, to gather 
permission from all those owners and operators who may be in 
the area that is the focus of these aerial surveys. Aerial 
surveys are an important tool for wildlife managers and 
research scientists whose studies can improve management 
practices that can benefit farmers and ranchers, as well as 
wildlife and the environment.
    Finally, reaffirming the respective authorities of the U.S. 
Fish and Wildlife Service and APHIS to work together to address 
animal damage issues can do no harm, but I would suggest that a 
change in the law is not warranted. The issue raised by Mr. 
Miyamoto with regard to eagles and sheep losses is a very 
serious concern, I am well aware of that, but it seems to be 
more of an issue of providing adequate resources to the Fish 
and Wildlife Service to do its job, rather than reaffirming in 
statute that APHIS and the Service do their jobs.
    Thank you, Chairman Barrasso and members of the Committee. 
Appreciate the opportunity to share my thoughts today.
    I would close by emphasizing one thing, and that is data 
and information are important management tools that can improve 
farm and ranch operations, inform new and better approaches for 
achieving conservation goals, and ensure that taxpayer dollars 
are used efficiently and effectively. That is, data are an 
asset, not just a bludgeon. If we can focus on opportunities to 
work together, agriculture, fish and wildlife, public health 
and safety, and our environment will benefit.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lyons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Barrasso. Well, thank you very much for your 
testimony. Thank you all.
    We will now have a round of 5 minutes of questions, and I 
will defer my time to Senator Inhofe.
    Senator Inhofe. Well, thank you, Mr. Chairman.
    I was listening, Mr. Miyamoto, to your opening statement. I 
chaired this Committee for a number of years, and the one 
thing, particularly during the last Administration, as a 
general rule, the Democrats want more regulation, and they want 
that regulation to come from Washington, not from locally or 
from the States. I remember going over the WOTUS rule. That was 
at a time when, and I think, Mr. Yates, you will remember this, 
that was the No. 1 concern, I think, for the Farm Bureau at one 
time. This was the big issue.
    Now, my State is an arid State, and we can just envision if 
the regulation that was put forth by the Obama administration 
had become a reality. It wouldn't be long until our panhandle 
would be a wetland, and we were fully aware of that. There 
would be another army of bureaucrats crawling all over our 
farms and ranches in Oklahoma.
    So, anyway, that is the overall thing. And, by the way, 
there was one really good program, it was called the 
Partnership Program that came from Fish and Wildlife, and this 
happened actually in the last Administration, where they 
actually came out, in my case, before confirmation of the Fish 
and Wildlife Director, I said I want you to make two trips out 
to Oklahoma and talk about the partnership and the people who 
are the farmers and the ranchers on the ground; and they came 
back with the conclusion that they are just as concerned or 
more concerned than the bureaucracy here in Washington is on 
what they want to do with the land, and they were very 
impressed by the fact--and it just stands to reason, but a lot 
of bureaucrats don't understand this, if you own a piece of 
property, you want it to be clean, you want it to conform. This 
is to your financial and to your benefit.
    Mr. Miyamoto, when I look at the list of regulations, I 
come to the conclusion that there is the idea in Washington 
that you have to have someone here looking out after your 
property because you are not going to do a good job yourself. 
You, yourself, acknowledge that some of these regulations 
targeted in the bill were of no environmental benefit, so it is 
unclear as to why would the opposition be opposition to them, 
other than loss of control. Unfortunately, it is our State 
partners that are then forced to comply with Federal mandates 
coming with no financial support, so it comes back to unfunded 
mandates.
    So, I ask you the question can you speak to the burdens 
that you and your fellow State agencies face when Washington or 
the courts hand down unfunded mandates?
    Mr. Miyamoto. Mr. Chairman, Senator, thank you for the 
question. The issue of unfunded mandates and delegated 
authority for State Departments of Agriculture is something 
that we have to think about frequently. We do carry out FIFRA 
regulations as a State Department of Agriculture in Wyoming, so 
this issue of pesticide regulation really does fall on the 
Department of Ag.
    There are other examples of many other programs that we 
have delegated authority from the Federal Government to 
implement regulations in the State. As an example, within the 
Wyoming Department of Agriculture, we also undertake food 
safety measures from FDA and we have Federal Meat Inspection 
Act under the Food Safety Inspection Service, and we have to 
make sure that we can do a good job of carrying out our 
regulatory obligations.
    So, when it comes to budgeting and unfunded mandates, we 
want to do a good job to carry out these Federal statutes in 
our State and uphold our end of the bargain, but it does become 
a challenge from time to time when there are so many of them. 
If they become duplicative, then it becomes impossible.
    Senator Inhofe. And I really think that this bill addresses 
a long list of them, and I have taken the time, as other 
cosponsors have, of going over and analyzing each one.
    I don't want to run out of time here. Mr. Yates, last week, 
in Senator Rounds' subcommittee hearing on the FARM Act, a 
colleague on the other side accused the Trump EPA of failing to 
provide farmers and ranchers with the guidance they need to 
comply with the recent court decisions that now requires ag 
industries to report to the EPA and the Coast Guard emissions 
from animal waste.
    Your testimony states that there is no scientific consensus 
on how to measure these emissions, and it is worth noting that 
the Obama EPA believed that this information wasn't needed and 
defended the Bush era policy. So, since you believe there is 
not the scientific consensus, do you think the EPA would be 
able to develop the guidance that is really needed here?
    Mr. Yates. Well, ultimately, that is something that 
livestock operators are going to need from the EPA and, to 
date, they have not been able to receive appropriate guidance 
that would give them the tools that they need to effectively 
measure those emissions on their livestock operation. I know 
there are a couple models that have been referenced. Texas A&M, 
I believe, and I believe there is another university that has 
developed a model.
    Again, the application of those models to a particular 
livestock operation is inaccurate, at best, it is a guess, so I 
think if we are going to be requiring livestock operators to 
report these emissions, they need to have the tools and the 
guidance to be able to effectively measure what it is that they 
are being required to report.
    Senator Inhofe. I think it is interesting that back during 
the Obama administration that is pretty much what their feeling 
was, too, at that time.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Before I ask a couple questions of our 
witnesses, I just want to note, if I could, Mr. Chairman and 
colleagues, for the record that during our hearing this 
morning, students across our Country are walking out of the 
classrooms for a brief while to mourn the loss of the victims 
of the Parkland shooting and to demand action to prevent gun 
violence in the future. I just want to acknowledge their 
efforts and to say that I share in solidarity with them.
    First question I have for our witnesses, again, we 
appreciate you being here. Thank you very much for your 
testimony and for your willingness to stay on and answer some 
questions, and maybe even some questions for the record.
    As you all know, and I think Mr. Lyons may have stated 
this, there is a longstanding tradition of bipartisan 
collaboration on Farm Bills and a lot of other agriculture 
legislation. I hope that this Committee and I hope that this 
Congress can uphold that tradition this year.
    With that said, based on what you just heard from your 
colleagues, what are the areas where you see agreement among 
the three of you? What are the areas where you see agreement 
among the three of you, please.
    Mr. Lyons, do you want to lead us off?
    Mr. Lyons. I think, first of all, Senator Carper, we agree 
that reducing the burden on agriculture producers of data 
collection and providing information is important, but we do 
need data and information, so gathering that in the most 
efficient and effective way possible is important.
    I agree with the concern about harassment and the desire to 
make sure that the information is managed properly to help 
achieve its intended purpose; to help improve programs, to help 
improve the operations of producers, to help reduce costs both 
for them and to the taxpayer.
    And I would like to think that we all agree that we need to 
meet not only the objectives of benefiting producers, but we 
also have an obligation as a community to protect public health 
and safety and the environment, and that is certainly an 
important part of why these statutes exist.
    Senator Carper. All right, thank you.
    Mr. Yates and Mr. Miyamoto, do you agree with anything he 
said?
    Mr. Yates. For the record?
    Senator Carper. Yes.
    Mr. Yates. For the record, Senator Carper, I am pleased to 
agree with Jim on the issues that he brought up. I think 
farmers and ranchers across the Country are the best stewards 
of our land and I think we want to work collectively within the 
regulatory fabric that we have to live and work in to produce 
the best results not only for farms and ranches, but for the 
environment. So, again, I would agree with Jim's comments on 
this.
    Senator Carper. Good. Would you like to add any other 
thoughts of your own about what are some other areas you might 
see for agreement?
    Mr. Yates. Well, I think, across the board, farmers and 
ranchers, when we go out to the field, I know President Duvall 
was in a couple weeks ago at your least hearing on 
environmental regulation.
    Senator Carper. Zippy Duvall.
    Mr. Yates. Zippy Duvall, yes, sir. He appreciated the 
commentary that you and he had at that hearing. But the No. 1 
thing that we hear from our farmers is concerns over red tape 
and regulations, in addition to a number of other issues that 
keep farmers up at night, and I think this bill represents a 
good start at looking at identifying duplications of 
regulations and identifying opportunities to streamline those 
to ensure that the regulations are commonsense and they make 
the most sense for the folks that have to live and work under 
the guidance of those rules and regulations.
    Senator Carper. I quote my parents almost every day of my 
life, something that they said, words of wisdom that they 
imparted to my sister and me when we were kids growing up. My 
dad was famous for saying, ``Just use some common sense'' to my 
sister and me, and he said it a lot. He did not say it so 
kindly.
    All right, Mr. Miyamoto. Just come back to what Jim has 
said and Ryan has said. Anything that you agree with that they 
have said and anything you would like to add, other possible 
areas of agreement? Go ahead.
    Mr. Miyamoto. Thank you, Senator. From what I heard today, 
there is a lot more agreement than there is disagreement. If 
there was one thing that I could certainly identify 
specifically, it would be the CERCLA piece and addressing that. 
So you are aware, I think that the aspects that are approached 
in this bill that addressed duplicative regulations and then 
sometimes regulations aimed in the wrong direction is a good 
start for us and would help me do a better job at home to not 
only regulate the agricultural community, but also to advocate 
for it. Because I kind of have that dual role and take it very 
seriously.
    Senator Carper. All right, thank you.
    I have about 15 seconds left. I am going to have some 
questions for the record. I wish I could give them in person, 
but we will submit those for the record. Again, we appreciate 
very much your presence today and your contributions. Thank 
you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you to our witnesses for being here today.
    Mr. Miyamoto, I will start with you, Director. FIFRA 
established an effective and comprehensive regulatory----
    Senator Carper. Could I interrupt?
    Senator Ernst. Oh, yes.
    Senator Carper. I apologize. I am going to go speak on the 
floor on the banking bill right now. I apologize.
    But could I just ask unanimous consent to submit for the 
record--I have a unanimous consent request that somewhere in 
this pile right here, and I would ask permission to submit for 
the record.
    And I apologize for interrupting you.
    Senator Barrasso. Without objection. And had you attended 
the University of Wyoming, you wouldn't have----
    [Laughter.]
    Senator Carper. Let the record show I was wait-listed 
there.
    [Laughter.]
    Senator Carper. As were our sons. They had to go to MIT and 
William & Mary.
    [Laughter.]
    Senator Carper. Thank you. I apologize.
    Senator Ernst. No, you're fine, Senator Carper.
    OK, Director, we will start over again. As you know, FIFRA 
established an effective and comprehensive regulatory web to 
provide pesticide-related environmental and public health 
protections, and this regulatory system is pretty darn rigorous 
in examining environmental data and health exposure assessments 
for pesticide products.
    Because this process specifically examines a product's 
potential impact on water, additional permitting requirements 
under the Clean Water Act are duplicative. We have talked a 
little bit about duplication of effort, and this will 
significantly increase the cost for State permitting 
authorities and pesticide users.
    So, we have already discussed the duplication of effort, 
the unfunded mandates, but if you could, could you please 
describe--let's go a little bit further into the weeds--the 
challenges that State Departments of Agriculture face when 
dealing with duplicative regulatory requirements, whether it is 
the costs associated with the paperwork shuffle, the timelines? 
Could you delve into that so that we know exactly what our 
State Departments of Ag go through?
    Mr. Miyamoto. Mr. Chairman, Senator, thank you for the 
question. It is something that we struggle with. Initially, 
when the NPDES requirements for pesticide applications came to 
light, which was eight or 9 years ago now, we had to do a 
series of workshops around the State with all of our certified 
pesticide applicators to inform them of this process, and it 
was quite an undertaking.
    It was a good collaboration; we used our State Department 
of Environmental Quality, EPA Region 8 was also represented. 
But there was a lot of training that went into how our 
applicators would become compliant with NPDES permitting 
requirements that were never aimed in that direction.
    So, initially there was a whole bunch of education, and 
even now, as people get recertified for pesticide application, 
we have training elements that are part of our training program 
that informs them of all of the steps that they have to take to 
get their NPDES permits and what the liabilities associated 
with those permits are.
    I think you quoted or you stated very eloquently that FIFRA 
handles the regulation of pesticides. We do that as a State 
Department of Agriculture, and, really, both NPDES and our 
regulation of pesticide applications boil down to the approved 
label by EPA. And if you follow that label that is attached to 
that product, you will be in compliance. Other than that, you 
are just shuffling paper.
    Senator Ernst. Very good. And that is a concern, too, the 
duplication of effort. The costs associated with that, what is 
a ballpark figure, to be qualified, and might be to the State 
Department as well?
    Mr. Miyamoto. Mr. Chairman, Senator, if it is OK with you, 
I will have to research that a little bit. I am unsure of what 
DEQ spends on their NPDES program specific to pesticides. I 
know for us, the training and certification program that we, as 
a State, put into our program, not Federal funds, but State 
funds, is about half a million dollars.
    Senator Ernst. OK. And, bottom line, it boiled down to, you 
said, if they just follow the instructions on the label, 
correct?
    Mr. Miyamoto. Correct.
    Senator Ernst. Correct. OK.
    And Director and Mr. Yates, both of your testimoneys made 
pretty compelling cases as to why the CERCLA reporting 
requirement is unnecessary and why Congress never intended for 
emergency air emissions to apply to day-to-day practices on ag 
operations. Do you think the documentation and process under 
CERCLA for reporting routine low-level animal manure emissions 
on a farm to the Coast Guard's National Response Center is the 
best use of Federal, State, and local tax dollars?
    Mr. Miyamoto. Mr. Chairman, Senator, again, thank you for 
the question. When I hear the term Superfund, that brings a lot 
to mind, and the expense associated with cleanup of Superfund 
undoubtedly is expensive. I have no idea what those expenses 
might be.
    But when it comes to CERCLA, I am quite certain that both 
EPA and the Coast Guard have better things to do with limited 
resources to address those sites that really are hazardous and 
a threat to human health. I don't even know how to begin to 
tell producers how to estimate emissions from an individual 
head of livestock, so not only do I think that it is not, the 
regulation, aimed in the right direction; I don't have anything 
to tell my producers about how to accurately comply. I can't 
ethically give them a formula that I think that they could 
defend.
    Senator Ernst. Thank you.
    Mr. Yates.
    Mr. Yates. Certainly, I would be in agreement. I think EPA 
has recognized that low-level continuous emissions of ammonia 
and hydrogen sulfide from livestock are not releases that 
Congress intended to be regulated under CERCLA; and I think 
when you start looking at the numbers, the numbers that we have 
received over the last 8 years, the annual phone calls to the 
National Response Center have averaged about 28,000 reports a 
year for the last 8 years.
    Looking at an additional 200,000 reports from farmers and 
ranchers, I don't think it is a great use of taxpayer dollars. 
Frankly, I think the NRC really should be focused on its true 
mission, and not receiving reports from farmers and ranchers 
trying to be in compliance with CERCLA.
    Senator Ernst. Thank you very much. I struggle to 
understand how we would measure some of those emissions from 
the rancher and farmer standpoint, but also what exactly is the 
Coast Guard going to do when they respond? I don't think that 
is spelled out anywhere.
    Anyway, thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Ernst.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Lyons, welcome. It is always nice to have a Marylander 
here, so I am glad to see you.
    Mr. Lyons. Thank you, Senator.
    Senator Cardin. I appreciate your testimony. And I just 
really, first, want to underscore the point that you made about 
farmers and the importance to our environment that farmers 
understand, that has certainly been true in Maryland, 
recognizing that a clean environment is in their best interest 
and part of their responsibility, as they see it, is to leave 
the land in better shape for the next generation, which 
includes the environment and clean water, et cetera, so I thank 
you for making that point.
    I want to sort of delve into the pesticide issue and 
insecticides, and the impact on the Chesapeake Bay, impact on 
clean water. We have made a real commitment to clean up the 
Chesapeake Bay, and all stakeholders are part of the process, 
including our farmers. They practice the best practices in 
order to minimize the concerns of pollution getting into the 
Bay. We very much appreciate all the work that they do.
    I want to talk about the FIFRA statute and its regulations 
as to whether it is duplicative of what EPA would be doing in 
regards to protecting our environment from insecticides, and 
get your view as to whether in fact this is duplicative or 
whether there is a different concern in regards to water 
quality.
    Mr. Lyons. Well, thank you, Senator, for the opportunity to 
address that, and I want to thank you for your leadership 
particularly in helping to protect the Chesapeake Bay, in spite 
of efforts to cut funding for the important programs there, so 
really appreciate that.
    I actually don't think that the duplication that is 
presented here between the Clean Water Act and FIFRA is 
completely accurate. FIFRA is designed to regulate the use and 
application of pesticides in general, and set standards, and 
certainly it sets standards for applications in relation to 
aqueous situations, in addition to land applications. But, 
really, the Clean Water Act serves a different purpose; it is 
really designed to protect our Nation's water quality by 
minimizing discharges of pesticides and other pollutants.
    So, I think, particularly in a place like the Chesapeake 
Bay, where we have a high water table and much of the landscape 
is vulnerable to stormwater runoff and other impacts, that the 
provisions of the Clean Water Act and the requirements that are 
associated with it provide an added element of assurance that 
pesticides are not going to get into the waterways and have 
adverse impacts on those water bodies.
    Senator Cardin. I thank you for that because the FIFRA 
statute deals with labeling, deals with other issues and the 
Clean Water Act deals with the quality of water in our Nation, 
so they have different standards to judge the regulatory 
activities. And we know that farming activities is the largest 
single source of pollutants entering the Bay. It is not the 
largest increase that comes from runoff, but the largest single 
source is from farming, so, therefore, it is critically 
important we try to minimize the best that we can, and the 
Clean Water Act certainly has been important in doing that. 
Would you agree with that?
    Mr. Lyons. Yes, I certainly do, Senator. I think it played 
an important role and I think we are seeing the benefits of 
that. I might mention, if I could actually put in the record, a 
recent Washington Post opinion by the editorial board, March 
7th, that says why the Chesapeake Bay is the best in the world. 
It talks to the improvements that have been made over many 
years of effort to improving water quality and the health of 
the Chesapeake Bay, and I think it is a reflection of the fact 
that proper application of tools. I see the Clean Water Act as 
a tool for addressing water quality concerns as well as other 
standards, is important.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Cardin. Always appreciate the opportunity of 
including the Chesapeake Bay in our record.
    Let me ask you one last question, which sometimes the 
reason for trying to get an exemption from the Clean Water Act 
deals with emergency situations where you have urgent issues 
that need to be dealt with quickly because of the health 
concerns that are brought about by some insects or invasions, 
things like that.
    Do you see the Clean Water Act regulations and the current 
applications of the law inconsistent with emergency response?
    Mr. Lyons. No, absolutely not, Senator. In fact, EPA 
developed a program to deal with emergency situations. I mean, 
zika would be a great example of that. Under those 
circumstances, an applicator can perform its pest control 
activities without having to wait for EPA approval for the 
application, so there is no inconsistency there.
    Senator Cardin. Thank you.
    Appreciate it, Mr. Chairman.
    Senator Barrasso. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. I thank you for 
calling this hearing today and I appreciate all of the 
witnesses coming to share your time and your expertise with us 
on these important issues.
    This bill encompasses a variety of priorities that I and 
many members of this Committee have labored over for, in some 
cases, many years, and I am glad to see the Committee 
recognizes that these commonsense solutions do need to move 
forward.
    The ACRE Act represents relief for ag producers from 
burdensome regulations, relief from regulations that do not 
offer more environmental protection and relief from regulations 
that have become duplicative and unnecessarily tie the hands of 
our producers.
    I am especially pleased to see included in this legislation 
policies that I have championed in this Committee for many 
years, and this includes addressing what I believe is a 
duplicative permitting of pesticides under FIFRA and the Clean 
Water Act. I would remind my colleagues that this is an issue I 
agreed with the Obama administration's EPA on, and it continues 
to be a concern in farm country.
    Additionally, the ACRE Act also includes my legislation to 
provide regulatory relief for farmers and ranchers with above-
ground, on-farm fuel storage. Intended for major oil 
refineries, the Spill Prevention, Control, and Countermeasure, 
or the SPCC, Rule would affect the amount of fuel producers can 
store on their land. And I certainly appreciate that the last 
WRDA bill included flexibility for producers, but more does 
need to be done.
    Finally, the ACRE Act includes the Fair Agricultural 
Reporting Method, or the FARM Act, which would provide greater 
certainty for ag producers by eliminating the burdensome 
reporting requirements for animal waste emissions under CERCLA.
    As of this morning, there are 37 cosponsors, Democrats and 
Republicans, on this stand-alone legislation. Our farm and 
ranch communities are in tough economic climates, and this bill 
before us does cut through the cumbersome red tape and enables 
our ag producers to continue to support their families and also 
to feed this hungry world.
    Director, it is my understanding that reporting animal 
waste emissions under CERCLA provides no environmental benefit. 
Do you agree with that?
    Mr. Miyamoto. Mr. Chairman, Senator, I do. We have operated 
regulatory frameworks for agriculture for quite some time now. 
The Clean Air Act is available to address air quality concerns. 
CERCLA was never a part of this until very recently, and the 
simple act of reporting does nothing to address any 
environmental concern.
    Senator Fischer. Thank you. Can you please explain to the 
Committee the current regulatory framework livestock producers 
must comply under, and specifically under the bill before us, 
the ACRE Act and, subsequently, the FARM Act, do certain 
providers still have to comply with EPCRA reporting 
requirements?
    Mr. Miyamoto. Mr. Chairman, Senator, they do. In confined 
animal feeding operations, they would still have a duty to 
report under EPCRA and comply with the regulatory requirements 
there.
    Senator Fischer. So, just to be clear, producers and our 
large animal feeding operations, they still must comply with 
EPCRA, the Clean Water Act, and State regulations?
    Mr. Miyamoto. Mr. Chairman, Senator, that is correct.
    Senator Fischer. Thank you.
    Director, in your testimony, you discuss the duplicative 
permitting process of pesticides under FIFRA and the Clean 
Water Act, and this process creates unnecessary resource 
burdens and challenges for pesticides, registrants, and users, 
including the agriculture community. This is why I have 
cosponsored legislation that would clarify the intent of the 
law and eliminate the Clean Water Act permit requirement. Can 
you please speak to the impact on farmers that are subjected to 
acquire a Clean Water Act permit?
    Mr. Miyamoto. Mr. Chairman, Senator, again, thank you for 
the question. I can speak to that to a degree. We have been 
operating our pesticide application regulatory program in 
conjunction with NPDES since 2009 or 2010, and it has just 
required a whole bunch more training. In that entire amount of 
time, I do not believe that our State partners at the 
Department of Environmental Quality have regulated pesticide 
applicators under NPDES permit requirements, meaning I don't 
think they have taken regulatory action against any of those 
applicators.
    We, on the other hand, have taken regulatory action against 
applicators that are not following the appropriate label. So, 
in essence, what it has become for us is just an exercise that 
we go through; make sure that you have your certified pesticide 
applicator's license, make sure that you are in line with 
either your major or minor NPDES pesticide general permit, make 
sure you have everything in order, and then go out and do your 
work. But when it comes to the regulation, FIFRA and the 
Department of Ag is where that resides.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Fischer.
    I am going to ask unanimous consent to enter for the record 
a number of letters of support and written testimony from 
groups who support various elements of the ACRE Act, including 
the National Agriculture Aviation Association, Wyoming Stock 
Growers Association, Agriculture Retailers Association, 
American Mosquito Control Association, National Pest Management 
Association, which includes more than 7,000 member companies.
    Without objection, they are admitted to the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Mr. Miyamoto, across the Country, farmers 
and ranchers acknowledge some of their yield of crops, fish, 
livestock are going to be lost to predators of many varieties, 
and you made comment about that in your testimony. Farmer and 
ranchers depend on management tools like permits to eliminate 
predators to keep their livestock safe and to prevent excessive 
losses.
    In Wyoming, ranchers lose newborn calves, lambs to ravens, 
to eagles. Indiana residents grapple with damage to 
transportation infrastructure from beavers. In Delaware, the 
State Wildlife Service helps to prevent damage to coastal salt 
marsh habitat from geese, other migratory waterfowl.
    Could you just talk a little bit about the important role 
that permits play in predator management and the need for the 
agency to process permit applications efficiently?
    Mr. Miyamoto. Mr. Chairman, thank you. I think that what 
permits provide in this whole discussion of depredation and 
damage caused by it is balance. The permit process allows the 
regulating agencies to keep track of what is going on out in 
the landscape. It requires our producers to go in and seek 
permission for a certain action, to remove or relocate 
depredating what they would consider nuisance species. But the 
permitting process makes sure that is all accounted for and so 
that we can manage to an objective.
    Senator Barrasso. I want to ask Mr. Yates if you have any 
additional thoughts on that and what you have seen in terms of 
getting the permits to deal with these issues.
    Mr. Yates. Certainly, Senator. Thank you for the question. 
Controlling wildlife damage is obviously a critical factor in 
maintaining the success of American agriculture, and permits 
are important. One example that we cite is the issue of the 
double-crested cormorant. Many of our commercial fish ponds are 
stocked at very high densities, from 2,000 to, say, 60,000 
catfish per acre, and for bait fish it is 50,000 to almost 
200,000 bait fish per acre.
    When it comes to the depredation issues with the cormorant, 
I know a 2014 estimate for the Mississippi Delta Region show 
that 18 million to 200 million fingerlings per winter are lost 
to bird depredation. A 1996 USDA survey shows that bird 
depredation were responsible for 37 percent of catfish losses 
in the aquaculture industry.
    So, certainly, the issue of permitting for depredation for 
the cormorants is a critical issue that I know our folks in the 
aquaculture industry are looking for Congress to provide 
immediate input and oversight on this important issue.
    Senator Barrasso. Mr. Miyamoto, we talked about trying to 
give relief for farmers and ranchers in weed and pest districts 
and others who face duplicative permitting requirements. That 
has been part of the questioning we have had from both sides of 
the aisle here today.
    These permitting requirements are imposed, specifically in 
weed and pest districts, by the National Pollutant Discharge 
Elimination System. It requires one permit under the Federal 
Insecticide, Fungicide and Rodenticide Act, the FIFRA Act, but 
another under the Clean Water Act to apply a pesticide, even if 
the pesticide is already approved by the one Act. It just seems 
that our effort is supported by aviation groups, agriculture 
producers, public officials like sanitary districts, mosquito 
control groups.
    And I have a letter that I am going to introduce from the 
Coalition to talk about that specific thing.
    Without objection, that will be submitted for the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Senator Barrasso. The Department of Agriculture in Wyoming 
has the responsibility for predator and pest control, the Weed 
and Pest Council, and human health priorities. You oversee 
this. Can you talk about the importance of pest and invasive 
species control, especially in a State with so much public 
land?
    Mr. Miyamoto. Mr. Chairman, I think that Wyoming has a big 
job when it comes to controlling invasive species and for 
predator control, both. We have so many ties to Endangered 
Species Act and other considerations that there is a lot to do. 
When it comes to our predator districts and our weed and pest 
districts out there in those local communities, they have more 
job than they have time. Anything that we can do to streamline 
the process, as long as we are not harming anything on the 
environmental side of the equation, I think we should pursue 
that.
    This example that you bring up of FIFRA as opposed to the 
Clean Water Act, NPDES permitting for pesticide applicators, in 
our experience at home, simply isn't necessary. We do it 
because we have to, but it doesn't change the application on 
the ground.
    Senator Barrasso. Mr. Yates, Section 7 and 8 of the ACRE 
Act deal with the issue of farmer safety and privacy. Could you 
please elaborate on why issues such as the disclosure of 
sensitive information of the location of certain farming 
operations or the aerial surveillance of farms by the Federal 
Government, why these are important and relevant issues to the 
agriculture community?
    Mr. Yates. Thanks, Senator. I think, like most Americans, 
farmers and ranchers are very sensitive about their privacy, 
sensitive and concerned about information about their 
operation. Many farmers, it is not just the mailing address of 
their business; many farmers and ranchers live in the location 
of their business. Having that information get out or having 
aggregate data about farmers in a region, a county, a State, is 
dangerous and concerning for farmers and ranchers. So, I think 
when we are looking at data, obviously, many of us have 
discussed the issues of how we can use data to be more 
effective in the work that we do.
    I think we should be mindful of that data and how that data 
can be used and who can access that data; and I think it is 
important in terms of oversight for this Committee to look at 
protecting the use of that date and ensuring that, if data is 
being requested from farmers and ranchers, that it is being 
done with their permission.
    Senator Barrasso. One last question, Mr. Yates, before I 
turn to Senator Boozman. The president of your organization, as 
we talked about, Mr. Zippy Duvall, was here and stated in his 
written testimony to our Committee in February, he said, ``Farm 
income is reduced about 50 percent compared to 5 years ago.'' 
And he went on to say, ``But I assure you that regulatory costs 
have not gone down.''
    So, in your opinion, will the provisions in the ACRE Act 
help reduce some of this regulatory burden on farmers and 
ranchers, and improve their income, while at the same time 
protect the environment?
    Mr. Yates. The short answer to that is yes, Senator, I do 
believe that, and I think the bottom line is, as Congress and 
as Federal agencies look at rules and regulations, I think they 
should be looked at through a lens of is this effective, is 
this the best way to conduct business. When we are looking at 
the issue of FIFRA and the Clean Water Act, the bottom line is, 
is additional duplicative regulatory requirements going to 
provide for increased environmental protections on the ground? 
If the answer to that is no, then I think the ACRE Act does a 
great job in providing for streamlining and ensuring that 
regulatory burdens on farmers and ranchers are minimized and 
are effective in providing for strong environmental compliance 
at the local level.
    Senator Barrasso. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I apologize for 
being late, late. I had a Veterans Affairs Committee hearing 
and then a Homeland Security, so I have good excuses. The 
problem is right now is there is just a lot going on up here, 
lots of stuff that is important, but positive stuff, so thank 
you all for being here and we do appreciate your testimony.
    Mr. Miyamoto, the FIFRA established an effective and 
comprehensive regulatory web to provide pesticide-related 
environmental and public health protection. It is rigorous; it 
examines the environmental data, health exposure assessments 
for pesticide products. This process specifically examines the 
product's potential impact on water. Additional permit 
requirements under the Clean Water Act are duplicative and will 
entail significant costs for State permitting authorities and 
pesticide users.
    Could you please highlight some of the challenges that your 
Department faces when regulating some of the regulatory 
requirements?
    Mr. Miyamoto. Mr. Chairman, Senator, thank you for the 
question. Our experience in Wyoming has been that we have co-
regulated under FIFRA and the Clean Water Act for eight or 9 
years now. In the beginning there was a whole bunch of 
education that we had to do with our certified pesticide 
applicators to make sure that they understood that they needed 
to hold not only their certified applicating license, but they 
also needed to hold an NPDES permit.
    I would argue that NPDES permits were designed for a 
completely different scenario, point source discharges, end-of-
pipe type regulations, so it was difficult for us to come up 
with all of the right information that should be included in 
that application in order for them to get that permit.
    Today, it is part of our standard operating and we do it, 
but I don't think that it gives us a corresponding increase in 
environmental benefit. It is one of those things that we do 
because we have to.
    Senator Boozman. Very good. Thank you very much. Also, many 
feel that the Comprehensive Environmental Response, 
Compensation, and Liability Act, CERCLA, reporting is 
unnecessary and was never intended to regulate agriculture. Can 
you talk about some of the environmentally based regulations 
that agriculture producers have to comply with and comment on 
CERCLA?
    Mr. Miyamoto. Mr. Chairman, Senator, specifically, I think 
the aim behind CERCLA, or, you know, at least one of the 
considerations of CERCLA was to look at emissions; and, for 
agriculture, that would be probably most relevant to confined 
animal feeding operations. And when it comes to confined animal 
feeding operations, the major regulatory law that is in place 
to guard against environmental damage from confining animals 
and feeding them would be the Clean Water Act.
    I have worked extensively in trying to remediate those 
impacts, basically, relocating corrals and feeding areas to 
where we can write comprehensive nutrient management plans that 
allay a lot of the concern of concentrating all of these 
pollutants in one area and allowing them either to volatilize 
into the air or to get into the water. So I think there is a 
framework in place and Mr. Lyon mentioned NRCS, and they are a 
good partner of ours and they help us with implementing 
comprehensive nutrient management plans for all of these areas 
that address these concerns.
    Senator Boozman. Very good. Thank you.
    Mr. Yates, a criticism of the EPA under the previous 
Administration was the Agency's disconnect with rural America. 
Many hardworking Americans in rural States feel that they 
didn't and still really feel like their voice is marginalized. 
Time and again I heard from my constituents who described a 
``gotcha'' attitude from Federal agencies. Instead of working 
with stakeholders and industry to develop and implement rules 
and regulations, the Federal Government would go it alone, 
without fully understanding how the rules would affect 
hardworking Americans.
    Can you explain the importance of the Federal Government to 
work hand-in-hand with the stakeholders as we develop rules and 
regulations? And then, also, do you believe that the current 
Administration has put an emphasis in cooperative federalism?
    Mr. Yates. Senator Boozman, thank you for the question. I 
would suggest that it is critical, be it in our western States 
that have a large abundance of Federal lands, that proper 
coordination and consultation with Federal land management 
agencies is vital to ensuring that the proper decisions are 
made that make the most sense for the land. It certainly goes 
without saying that coordination between States, Federal 
Government, and end-users is ultimately going to provide for 
the best possible result moving forward in terms of complying 
with regulations.
    Ultimately, I think the more interaction the Federal 
agencies have with folks at the local level, the better results 
you are going to have. Certainly, there have been criticisms 
from one Administration to another about do we have the best 
relationship, are they engaging with local stakeholders.
    I would suggest that with this Administration, 
Administrator Pruitt, we have had a fantastic working 
relationship. I know they have a lot of work to do and I would 
like to certainly report that relationship is a positive one 
and we continue to strive to identify more opportunities to 
work hand-in-hand with EPA to identify commonsense solutions to 
the issues that are facing American farmers and ranchers.
    Senator Boozman. Good. Thank you, Mr. Yates.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you. I appreciate you coming in today. I think 
we share with all the witnesses, and really all of us on this 
Committee and in the Senate, that we realize how important our 
Nation's farmers and ranchers are, and we don't want to 
overburden with regulations. But we also want to ensure, as 
Americans, that they have the right to privacy like so many of 
us do.
    When I was over in the House I introduced a bill called the 
Farmer's Privacy Act. This was in reaction to a situation that 
occurred in my State of West Virginia, where a poultry farmer 
was surveilled by the EPA--we are not talking about giant 
operations here, we are talking two or three houses--by the EPA 
and then fined accordingly, or investigated. It just struck me 
that the EPA, we found out later, had rented a small aircraft 
to surveil the small farms in the eastern portion of our 
States.
    I raised the point, even though it is difficult to get from 
point A to point B sometimes because of the mountains that we 
have, that we were violating that farmer's rights, and it just 
felt too intrusive to me. So, part of what is included in this 
bill is that privacy provisions.
    I am wondering if you, in Wyoming, have had any of these 
same kind of circumstances where you have had aerial 
surveillance without permission or if this is an issue in other 
parts of the Country. So, if you want to start, Mr. Miyamoto.
    Mr. Miyamoto. Mr. Chairman, Senator, thank you for the 
question. We have experienced similar type of interest from 
mostly our special interest groups that have targeted 
individual ranchers and then would like to undermine their 
efforts to conduct successful business.
    As a regulatory agency myself, I can tell you that we have 
been able to successfully regulate farms and ranchers in 
Wyoming without aerially surveilling them. We take that 
obligation fairly seriously, but I think it can be done, and 
probably should be done, face-to-face.
    Senator Capito. Right. Right.
    Does anybody else have any comments on that? I don't know 
if you heard anything at the Farm Bureau, Mr. Yates.
    Mr. Yates. Senator, thank you. And thank you for your work 
on this important legislation. Again, as I mentioned in my 
testimony, the use of UAS in precision agriculture is a great 
tool. Many of our farmers are employing drones and drone 
technology.
    Senator Capito. Right.
    Mr. Yates. But, again, I think the broader concern for our 
members is the use of those tools in providing for surveillance 
of farms and farm operations without the consent of the farmer 
or the landowner; and I think that ultimately, if those tools 
are going to be used, we need to make sure that we ensure that 
private property rights and privacy are taken into account and 
that farmers provide their permission for the use of that 
technology by a Federal agency or an outside organization.
    Senator Capito. And that is the substance of my bill, and I 
want to thank the Chairman for including that in there.
    I want to ask another question. We had two things happen, 
two visits I had most recently, one from a beef farmer in our 
State in conjunction with Trout Unlimited. And I think 
sometimes the misconception that our farmers want to be in 
opposition of environmental stewardship is just a misplaced 
concept, but they don't have the resources or the expertise to 
really move forward with what would be the best methods to go 
forward.
    In this case, Trout Unlimited had partnered with the beef 
farmer to give him the resources to be able to clean up the 
stream and now it is a major trout stream in our area. So the 
landowner, obviously, has the benefit of that, along with 
others who want to recreate there. So it has a mutual benefit.
    I would just ask, the partnerships that are developed, we 
also had the Wildlife Resources Foundation were just in our 
State, wildlife folks were just in, same kind of partnerships 
that are occurring. Are you finding that is what is happening 
around in Wyoming, that the private sector and the recreational 
industry that revolves around using our land and fisheries is 
the same sort? Because, obviously, in Wyoming tourism is very 
important as well.
    Mr. Miyamoto. Mr. Chairman, Senator, strangely enough, 
years ago I spent a good deal of the early part of my career 
doing nothing but watershed planning on a collaborative and 
community-based standpoint, and I think we developed over two 
dozen different non-point-source watershed-based plans to 
address 303(d) listed in paired segments, and we did it exactly 
in the manner that you are talking about.
    What I learned through that experience is that local, 
voluntary, and incentive-based approaches for water quality 
improvement tend to work much, much better than any regulatory 
scheme that we could put in place to address those issues.
    Senator Capito. Thank you.
    And just a final comment, because I am out of time, but I 
know there is a portion of this bill that deals with predatory 
species. I would just mention that I hope--I am not sure that 
it does because I haven't asked the question yet. But we have a 
problem with coyotes in our area and our livestock, and I would 
hope that resources would be available to help our agricultural 
entities deal with this predator that is pretty sneaky and 
pretty tough to get. Thank you very much.
    Senator Barrasso. Well, I want to thank all of the members 
for being here. I appreciate the testimony of the three 
witnesses.
    Members may submit written questions. I know that Senator 
Carper has suggested he will be submitting some written 
questions, so I ask that you return those responses quickly.
    The hearing record will remain open for 2 weeks.
    I again want to thank you all for your testimony on this 
important issue.
    The hearing is adjourned.
    [Whereupon, at 11:29 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

                                 <all>
</pre></body></html>
